March 30, 1999

CHARLES K. KERNAN
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBECT:	      San Antonio District – Delays in Processing of Equal Employment
              Opportunity Complaints (Audit Report Number LR-AR-99-010)

This report presents the results of our review of the timeliness of claims
processing by the San Antonio District (Project Number 99-EA-001-LM-000).
The report is in response to a significant number of equal employment
opportunity-related complaints from employees in the San Antonio District.

The audit revealed that the San Antonio District has experienced varying rates
of success in meeting the pre-complaint and formal complaint processing
timeframes. However, we believe the processing delays are due to insufficient
staffing and turnover in key positions. Management agreed to our
recommendations and has initiatives planned and in progress addressing the
issues in this report.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions, please contact me at (703) 248-2300.



//Signed//
Billy Sauls
Assistant Inspector General
  for Employee

Attachments

cc: 	Anthony J. Vegliante
    Lawrence K. James
    Peter Garwood
   John R. Gunnels 

   Alan B. Kiel 

San Antonio District - Delays in Processing of Equal Employment   LR-AR-99-010
 Opportunity Complaints

                               Table of Contents



 Part I

 Executive Summary                                                         1


 Part II

 Introduction
   Background                                                              4

   Objectives, Scope, and Methodology                                      5


 Audit Results
   Timeliness of Processing Equal Employment Opportunity Complaints 

      Open Pre-Complaint Processing Timeframes and Backlogs                8

      Closed Pre-Complaint Processing Timeframes and Backlogs              9

      Formal Complaint Processing Timeframes and Backlogs                 10 


   Factors Contributing To Processing Delays And Backlogs 

      Staffing of Equal Employment Opportunity Counselor/Investigators    12 

      Management Turnover                                                 13 

      Processing Burden of Cases that are Unrelated to Discrimination     13 


   Effects of Processing Delays and Backlogs 

      Recommendations                                                     14 

      Management Response                                                 14 

      Evaluation of Management Response                                   14 


 Appendix                                                                 17 





                                 Restricted Information
San Antonio District - Delays in Processing of Equal Employment       LR-AR-99-010
 Opportunity Complaints

                               EXECUTIVE SUMMARY

Introduction 	             This report is the first of a series of reports in an ongoing
                           review of the equal employment opportunity process in the
                           United States Postal Service (USPS). In response to a
                           significant number of equal employment opportunity-related
                           complaints from employees in the San Antonio District, we
                           focused first on equal employment opportunity processing in
                           that district. This report is limited to our examination of the
                           timeliness of equal employment opportunity complaint
                           processing in the San Antonio District.

Results in Brief	          The San Antonio District has experienced varying rates of
                           success in meeting the pre-complaint and formal complaint
                           processing timeframes. We based this observation upon a
                           total analysis of 1,515 cases. We found that for 152 open
                           pre-complaints:

                           •	 34 percent (51 of 152) were already past the 30-day
                              timeframe and had not been assigned;

                           •	 30 percent (45 of 152) had been assigned but pre-
                              complaint counseling was not completed within the 30-
                              day timeframe;

                           •	 20 percent (31 of 152) were awaiting submission of
                              Postal Service Form 2564-A, Information for Pre-
                              Complaint Counseling, to initiate the pre-complaint
                              counseling process; and

                           •	 16 percent (25 of 152) were within the 30-day timeframe.

                           We found for 998 closed pre-complaint cases that it took an
                           average of 78 days to complete inquiries, more than double
                           the time allowed by law.

                           We reviewed 365 formal complaints and found that
                           generally the San Antonio District completes investigations
                           within the 180-day timeframe.

                           Specifically:

                           •	 17 percent (20 of 117) of open cases reviewed on
                              January 13, 1999, were past the 180-day timeframe;



                                               1
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment       LR-AR-99-010
 Opportunity Complaints



                           •	 18 percent (44 of 248) of cases initiated and completed
                              since October 1, 1996 were completed past the 180-day
                              timeframe.

                           We believe the following has impacted the district’s ability to
                           meet mandatory processing timeframes:

                           •	 The district generally has operated with only half (3 of 6)
                              of its authorized equal employment opportunity
                              counselor/investigator positions.

                           •	 Frequent turnover in three key positions including the
                              human resources manager and district manager has
                              contributed to a lack of focus on issues concerning equal
                              employment opportunity complaint processing.

                           Further officials at USPS Headquarters and in the San
                           Antonio District stated that the equal employment
                           opportunity complaint process is often used as a vehicle to
                           complain about tension and stressful working relationships.
                           In addition, they believe that some of the complaints are
                           frivolous. As a result, the equal employment opportunity
                           staff is overburdened.

Recommendations 	          We recommend that the Vice President, Southwest Area
                           Operations, and the Manager, San Antonio District, initiate
                           the following actions:

                           1. Monitor the resources and volume of Equal Employment
                              Opportunity complaints in the district and adjust staffing
                              to meet required timeframes.

                           We recommend that the Vice President, Labor Relations
                           initiate the following actions:

                           2. Explore requesting from the Equal Employment
                              Opportunity Commission a waiver that would allow
                              USPS to use the date documentation is received as the
                              starting point for the prescribed 30-day pre-complaint
                              processing.

                           3. Ensure that technical support is provided to the District
                              on how to place time extensions into the USPS Equal
                              Employment Opportunity Tracking System.


                                               2
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment      LR-AR-99-010
 Opportunity Complaints

Summary of                 1. The Vice-President, Southwest Area Operations,
Management                    provided a plan of action to ensure the timely processing
Response                      of equal employment opportunity complaints. The
                              Southwest Area Vice-President and San Antonio District
                              Manager have expressed a strong interest in resolving
                              the workload backlog.

                           2. The Vice-President for Labor Relations responded that
                              the Equal Employment Opportunity Commission has
                              chosen the date of initial contact as the most important
                              date for agencies to track and that the Commission has
                              been reluctant to make changes or grant waivers.

                           3. The Vice President for Labor Relations stated that the
                              Southeast/Southwest Appeals Processing Center would
                              provide assistance to the San Antonio District to ensure
                              that extensions granted by complainants are recorded in
                              the database and used to better manage the workload.

                           We included the full text of management’s comments in the
                           Appendix.

Evaluation of              Management’s comments are generally responsive to our
Management                 recommendations. However, while we agree that the Equal
Response                   Employment Opportunity Commission may be reluctant to
                           grant any waivers, we believe that the Commission would
                           consider a written request supported by factual statistics on
                           actual delays and how the delays adversely impact the
                           USPS’ ability to comply with prescribed timeframes.

                           While management’s response concerning providing
                           assistance to the San Antonio District on how to record
                           extensions granted by complainants into the national
                           database is responsive to the situation in San Antonio, it
                           does not recognize that the problem also exists in other
                           districts.




                                               3
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment        LR-AR-99-010
 Opportunity Complaints

                                    INTRODUCTION

Background                 USPS equal employment opportunity complaints are to be
                           processed in accordance with federal regulations (29 C.F.R.
                           part 1614) promulgated by Equal Employment Opportunity
                           Commission. These regulations establish time
                           requirements for each stage of the complaint process.

                           A current or former USPS employee or an applicant for a
                           USPS position who believes he or she has been
                           discriminated against is required to contact an equal
                           employment opportunity counselor within 45 calendar days
                           of the alleged discriminatory action. The aggrieved person
                           must consult an equal employment opportunity counselor
                           for pre-complaint counseling in an effort to resolve the
                           matter informally. Within 30 calendar days of initial contact,
                           the aggrieved person must receive written notification of his
                           or her right to file a formal discrimination complaint within 15
                           calendar days. The aggrieved person may agree to extend
                           the counseling period for an additional 60 calendar days.

                           Employees unable to resolve their concerns through
                           counseling may file a formal complaint with USPS, which
                           may be dismissed or accepted. If the complaint is
                           accepted, an investigation is conducted. USPS is required
                           to (1) decide whether to dismiss or accept the complaint for
                           investigation, and (2) issue a report within 180 calendar
                           days from the complaint’s filing. In some cases, the
                           complainant may agree in writing to allow USPS an
                           additional 90 calendar days to complete the investigation.
                           The USPS Southeast/Southwest Appeals Processing
                           Center makes the decision to either dismiss or accept a
                           complaint in the San Antonio District. If the complaint is
                           accepted, the center instructs the district to conduct an
                           investigation.

                           USPS employees who are covered under collective
                           bargaining agreements and who allege discrimination have
                           more redress opportunities than other federal workers.
                           USPS employees can pursue two courses of action
                           concurrently: (1) file a discrimination complaint under the
                           federal employee discrimination complaint process, and (2)
                           file a grievance through procedures under the collective
                           bargaining agreement.




                                               4
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment        LR-AR-99-010
 Opportunity Complaints

                           The Equal Employment Opportunity Commission states in
                           its Equal Employment Opportunity MD – 110 (Management
                           Directive for 20 C.F.R. – Part 1614) that:

                           •	 Counseling is an essential part of the federal system for
                              processing and resolving employee concerns;

                           •	 The opportunity for informal resolution at an early stage
                              of the complaint processing is an important feature of the
                              counseling stage; and

                           •	 Agencies are obligated to investigate complaints of
                              discrimination in a timely manner.

                           Equal Employment Opportunity Commission’s pre-complaint
                           procedures are designed to determine the issues and basis
                           of the potential complaint, conduct a limited inquiry for the
                           purpose of furnishing information for settlement efforts, and
                           seek a resolution of the matter at the lowest possible level.

                           The guidance also states that agencies are obligated to
                           investigate complaints of discrimination in a timely manner.
                           The guidance emphasizes the importance of a fair and
                           impartial investigation in processing and resolving
                           complaints of discrimination.

Objectives, Scope          The objectives of our ongoing audit are to evaluate:
and Methodology
                           •	 the success of the USPS Equal Employment Opportunity
                              Program in providing equal opportunity to all persons in
                              hiring, training, rewarding, promoting, and the
                              disciplining process;
                           •	 the Diversity Development Program by reviewing the
                              representation of women, minorities, disabled, and older
                              persons at all levels of the organization; and
                           •	 the equal employment opportunity claims processing
                              system to determine if complaints are being handled
                              professionally, objectively, and timely.

                           This audit will produce several reports; this report is limited
                           to the timeliness of equal employment opportunity
                           processing in the San Antonio District.

                           In addressing our overall audit objectives, we analyzed
                           hotline complaints and congressional inquiries made to the


                                               5
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment      LR-AR-99-010
 Opportunity Complaints

                           OIG concerning equal employment opportunity complaint
                           processing, and subsequently categorized complaints by
                           geographic area. Our analytical review process considered
                           geographic area, number and nature of complaints, and
                           potential systemic issues. Since the complaints from the
                           San Antonio District indicated systemic problems such as
                           timeliness, we focused our initial fieldwork in San Antonio.

                           We met with officials located at USPS Headquarters to gain
                           an understanding of equal employment opportunity
                           complaint processing procedures. We also met with
                           officials at the Equal Employment Opportunity
                           Commission’s Office of Federal Operations to gain an
                           overall understanding of equal employment opportunity
                           complaint processing and to identify issues specific to the
                           USPS.

                           We then met with officials in the Southwest Area Office in
                           Dallas and the San Antonio District to gain an
                           understanding of the process and their concerns. At the
                           area office, we interviewed the Area Vice President, the
                           Human Resources Manager, the Resolve Employment
                           Disputes Reach Equitable Solutions Swiftly (REDRESS)
                           Coordinator, the Hispanic Program Coordinator, and a
                           consultant responsible for succession planning. At the
                           District Office, we interviewed the District Manager, the
                           Acting Human Resources Manager, the Senior Equal
                           Employment Opportunity Complaint Specialist, Equal
                           Employment Opportunity Counselor/ Investigators, the
                           Diversity Specialist, and support personnel.

                           We obtained district equal employment opportunity staffing
                           figures and complaint statistics. We analyzed data from the
                           Equal Employment Opportunity Complaint Tracking System
                           to determine if complaints were processed timely. We
                           determined the status of 1,515 complaints chosen for
                           review. During our fieldwork in San Antonio, we reviewed
                           all open cases, including:

                           •   152 open pre-complaint cases; and
                           •   117 open formal complaint cases.

                           We also analyzed data on all but 30 cases opened and
                           closed in the San Antonio District between October 1, 1996
                           and January 13, 1999, from the USPS Equal Employment



                                               6
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment           LR-AR-99-010
 Opportunity Complaints

                                Opportunity Complaint Tracking System. We did not audit
                                the database to determine the accuracy of the data. We
                                believed that this time period was sufficient to examine
                                processing trends over a longer period. We excluded 30
                                cases due to unrecorded processing dates or conflicting
                                dates.1 We reviewed:

                                •   998 closed pre-complaint cases; and
                                •   248 closed formal complaint cases.

                                Further, we discussed our findings with officials in the San
                                Antonio District and USPS Headquarters to ascertain
                                reasons for processing delays.

                                Our fieldwork was conducted between December 1998 and
                                January 1999 in accordance with generally accepted
                                government auditing standards.




1
    The dates recorded were not in the logical processing sequence.



                                                     7
                                          Restricted Information
San Antonio District - Delays in Processing of Equal Employment      LR-AR-99-010
 Opportunity Complaints

                                    AUDIT RESULTS

Timeliness of              The pre-complaint counseling process must be completed
Processing Equal           within 30 days of the initial contact. Initial contact occurs
Employment                 when an equal employment opportunity official is first made
Opportunity                aware that an employee has a complaint. This initial
Complaints                 contact may be verbal. Pre-complaint counseling cannot
                           begin, however, until the complainant submits Postal
                           Service Form 2564-A, Information for Pre-complaint
                           Counseling.

Open Pre-Complaint         The pre-complaint process requires USPS to assign the
Processing                 complaint to a counselor/investigator, who then completes
Timeframes and             pre-complaint counseling. We found that:
Backlogs
                           •	 34 percent (51 of 152) open pre-complaint cases were
                              already past that timeframe and had not been assigned;

                           •	 30 percent (45 of 152) had been assigned but pre-
                              complaint counseling had not been completed within the
                              30-day timeframe;

                           •	 20 percent (31 of 152) were awaiting submission of
                              Postal Service Form 2564-A to initiate the process; and

                           •	 16 percent (25 of 152) were still within the 30-day
                              timeframe.

                           The 30-day processing timeframe starts when an individual
                           first contacts the equal employment opportunity office by
                           telephone, mail, or in-person. Of the 152 cases reviewed,
                           31 could not be processed because the equal employment
                           opportunity staff had not received the Postal Service Form
                           2564-A. In the other 121 cases, we found that claimants
                           took an average of 13 days to return the Postal Service
                           Form 2564-A with a range of 0 to 98 days. Delays in
                           receiving the Postal Service Form 2564-A affected the equal
                           employment opportunity staff’s ability to meet prescribed
                           timeframes. The Headquarters Manager for Equal
                           Employment Opportunity Compliance and Appeals was
                           aware of the delays in submitting Postal Service Form
                           2564-A and noted that similar delays also affect other
                           districts. We asked if he had requested authority from the
                           Equal Employment Opportunity Commission to begin the
                           30-day timeframe when the documentation was received


                                               8
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment        LR-AR-99-010
 Opportunity Complaints

                           and he responded that such a request had not been made.
                           We suggested that such a request might be reasonable
                           based on the number of postal facilities and dispersed
                           geographical locations of these facilities.

                           Twenty-seven of the 121 pre-complaint cases were granted
                           extensions by the complainants. The San Antonio District
                           had not entered any extensions into the Equal Employment
                           Opportunity Complaint Tracking System. We inquired about
                           this practice, and were advised that the district had a policy
                           of not recording extensions in the system. During our
                           fieldwork, district staff attempted to enter extensions into the
                           system, but encountered technical problems. We discussed
                           this problem with the Headquarters Manager for Equal
                           Employment Opportunity Compliance and Appeals, who
                           responded that the San Antonio district staff would be
                           provided with technical assistance.

                           USPS is required to submit an annual report to the Equal
                           Employment Opportunity Commission. The report
                           submitted to the Equal Employment Opportunity
                           Commission for Fiscal Year (FY) 1996 and 1997 indicate
                           that all pre-complaints were resolved during the prescribed
                           timeframes. The Headquarters Manager for Equal
                           Employment Opportunity Compliance and Appeals indicated
                           that the form did not include a section to report resolutions
                           achieved after the prescribed timeframes. The Equal
                           Employment Opportunity Commission Form 462, Annual
                           Federal Equal Employment Opportunity Statistical Report of
                           Discrimination Complaints, does not provide for recording
                           resolutions achieved past the prescribed timeframes.
                           Therefore, USPS is forced to record all pre-complaints as
                           completed within 30 or 90 days. We discussed the
                           shortcomings of this form with Equal Employment
                           Opportunity Commission officials, who stated that efforts are
                           being made to revise the form for all federal agencies.

Closed Pre-Complaint       We analyzed data from the USPS Equal Employment
Processing                 Opportunity Complaint Tracking System on all but 30 cases
Timeframes and             opened and closed in the San Antonio District between
Backlogs                   October 1, 1996 and January 13, 1999. We believed that
                           this time period was sufficient to examine processing trends
                           over a longer period. We excluded 30 cases due to




                                               9
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment           LR-AR-99-010
 Opportunity Complaints

                                unrecorded processing dates or conflicting dates.2 Of the
                                998 closed pre-complaint cases we reviewed, we found it
                                took an average of 78 days to complete inquiries, more than
                                double the time allowed by law.

                                Further analysis showed it took an average of 47 days to
                                assign the cases, 27 days before the counselor/investigator
                                conducted the initial interview, and 5 days to either settle
                                the case or issue the Right to File a Formal Complaint. We
                                were unable to consider extensions granted by
                                complainants because San Antonio had not recorded this
                                information in the database. Also, we could not consider
                                delays caused by complainants not returning completed
                                documentation in a timely manner because that information
                                also is not recorded in the database. We informed the
                                Headquarters Manager for Equal Employment Opportunity
                                Compliance and Appeals that documenting this information
                                would support a request to the Equal Employment
                                Opportunity Commission to allow USPS to use the date
                                documentation is received as the starting point for the
                                prescribed timeframes.

Formal Complaint                When issues are not resolved during the pre-complaint
Processing                      process, the counselor/investigator provides the claimant
Timeframes and                  with a Notice of Right to File Individual Complaint (Postal
Backlogs                        Service Form 2579). The claimant has 15 days to decide
                                whether to file a formal complaint. USPS is required to
                                review the formal complaint and determine if it merits an
                                investigation. Complaints submitted by San Antonio District
                                employees are reviewed by the USPS Southeast/Southwest
                                Appeals Processing Center. If the Center accepts the
                                complaint, it instructs the San Antonio District to conduct an
                                investigation and prepare a report within 180-days.

                                We reviewed 365 formal complaints and found that
                                generally the San Antonio District completes investigations
                                within the 180-days. Specifically:

                                •	 Seventeen percent (20 of 117) of open cases reviewed
                                   on January 13, 1999, were past the 180-day timeframe.
                                   The average age was 113 days, with a range of 9 to 244
                                   days.


2
    The dates recorded were not in the logical processing sequence.



                                                    10
                                          Restricted Information
San Antonio District - Delays in Processing of Equal Employment     LR-AR-99-010
 Opportunity Complaints

                           •	 Eighteen percent (44 of 248) of the cases initiated and
                              completed since October 1, 1996 were completed in
                              more than 180-days.

                           Of the 248 cases initiated and completed since October 1,
                           1996, it took an average of 151 days to complete the
                           investigations:

                           •	 45 days for the Southeast/Southwest Appeals
                              Processing Center to accept the complaints for
                              investigations;

                           •	 39 days for the San Antonio Equal Employment
                              Opportunity Office to assign the cases to
                              counsel/investigators; and

                           •	 67 days for counsel/investigators to complete the
                              investigations.




                                              11
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment                     LR-AR-99-010
 Opportunity Complaints



Factors Contributing             Processing delays and backlogs are attributed to a lack of
To Processing Delays             stating of Equal Employment Opportunity
And Backlogs                     Counselor/Investigators, turnover in key management
                                 positions, and processing the burden of cases that are
                                 unrelated to discrimination.

Staffing of Equal                Analysis of staffing and training assignments from 1994 to
Employment                       1998 indicates that the San Antonio District generally has
Opportunity Counselor/           operated with only half (3 of 6) of its authorized equal
Investigators                    employment opportunity counselor/investigator positions.

                                 District officials stated that they relied on ad hoc3 staffing as
                                 a means to meet statutory complaint processing
                                 requirements. The Senior Equal Employment Opportunity
                                 Specialist noted that ad hoc staffing provided some relief in
                                 processing cases, but the effectiveness of this solution was
                                 limited by the time needed to train ad hoc personnel.
                                 Additionally, Headquarters officials noted that ad hoc
                                 staffing was used mainly in the pre-complaint processing
                                 phase.

                                 According to San Antonio District statistics, 494 counseling
                                 requests were received during FY 1997 and 574 were
                                 received during FY 1998, a 16 percent increase. Formal
                                 complaints have increased 35 percent during this same
                                 period, while the authorized staffing for processing equal
                                 employment opportunity complaints has remained constant.

                                 During our initial visit to the San Antonio District, we
                                 discussed processing delays with the Acting Human
                                 Resources Manager and District Manager. As a result of
                                 these discussions, the District Manager authorized the
                                 announcement of two additional ad hoc positions.

                                 Resolve Employment Disputes Reach Equitable Solutions
                                 Swiftly (REDRESS is an alternative dispute resolution
                                 process that has been successful in other districts.
                                 REDRESS relies upon outside mediators to resolve pre-
                                 complaints and lower the number of formal complaints. The
                                 San Antonio District was scheduled to implement
                                 REDRESS in January 1999, but implementation has been
                                 postponed until March 31, 1999. District officials hope to

3
    Ad hoc personnel are defined as individuals assigned for a limited period of time such as two years.



                                                     12
                                           Restricted Information
San Antonio District - Delays in Processing of Equal Employment        LR-AR-99-010
 Opportunity Complaints

                           use REDRESS to reduce the existing backlog by giving
                           complainants the option of working with outside mediators.

Management Turnover        Headquarters and District officials stated that a lack of
                           continuity in leadership has contributed to the processing
                           delays and backlogs. The district experienced turnover in
                           three key management positions. The District had seven
                           Human Resource Managers between 1996 and 1998, and
                           five District Managers or Acting District Managers since
                           1992. There have been five changes in the Equal
                           Employment Opportunity Specialist positions since 1994.
                           We believe that the frequent turnover in staff has
                           contributed significantly to a lack of focus on staffing
                           concerns and on the growth in equal employment
                           opportunity complaint volumes.

Processing Burden of       Officials at USPS Headquarters and in the San Antonio
Cases that are             District also stated that the equal employment opportunity
Unrelated to               complaint process is often used as a vehicle to complain
Discrimination             about tension and stressful working relationships. They
                           attribute the stressful relationships to conditions that arose
                           during the previous District Manager’s tenure. In addition,
                           they believe that some of the complaints are frivolous but
                           could not estimate the number of cases that fall into this
                           category. Federal statutes and regulations do not provide
                           allowances for distinctions between frivolous and non-
                           frivolous complaints. All complaints, regardless of
                           perceived merit, must be processed.

                           The San Antonio District performed an analysis of equal
                           employment opportunity complaints filed during FY 1998
                           showed that non-sexual harassment and working conditions
                           were predominate reasons employees alleged
                           discrimination.




                                              13
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment      LR-AR-99-010
 Opportunity Complaints



Effects Of Processing District officials believe that failure to meet time
Delays And Backlogs requirements fosters the perception that the equal
                      employment opportunity process is unfair and unresponsive
                      to issues being raised by complainants. USPS
                      Headquarters and District officials believe that not meeting
                      processing timeframes contributes to poor working
                      relationships and often leads to additional complaints on
                      same or similar problems. District officials provided
                      examples of employees who have filed multiple complaints.
                      One individual filed 60 complaints. Further, officials noted
                      that a lack of timeliness in processing complaints may
                      hinder informal resolutions. Resolving complaints at the
                      lowest possible level saves time, money, and resources.

Recommendations            We recommend that the Vice President, Southwest Area
                           Operations, and the Manager, San Antonio District, initiate
                           the following actions:

                           1. Monitor the resources and volume of Equal Employment
                              Opportunity complaints in the district and adjust staffing
                              to meet required timeframes.

                           We recommend that the Vice President, Labor Relations
                           initiate the following actions:

                           2. Explore requesting from the Equal Employment
                              Opportunity Commission a waiver that would allow
                              USPS to use the date documentation is received as the
                              starting point for the prescribed 30-day pre-complaint
                              processing.

                           3. Ensure that technical support is provided to the District
                              on how to place time extensions in the USPS Equal
                              Employment Opportunity Tracking System.

Management                     The Vice-President, Southwest Area Operations,
Response                       provided a plan of action to ensure the timely processing
                               of equal employment opportunity complaints. The
                               Southwest Area Vice-President and San Antonio District
                               Manager have expressed a strong interest in resolving
                               the workload backlog.




                                              14
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment      LR-AR-99-010
 Opportunity Complaints

                           1. The Vice-President for Labor Relations responded that
                              the Equal Employment Opportunity Commission has
                              chosen the date of initial contact as the most important
                              date for agencies to track and that the Commission has
                              been reluctant to make changes or grant waivers.

                           2. The Vice President for Labor Relations stated that the
                              Southeast/Southwest Appeals Processing Center would
                              provide assistance to the San Antonio District to ensure
                              that extensions granted by complainants are recorded in
                              the database and used to better manage the workload.

Evaluation of              Management’s comments are generally responsive to our
Management                 recommendations. However, while we agree that the Equal
Response                   Employment Opportunity Commission may be reluctant to
                           grant any waivers, we believe that the Commission would
                           consider a written request supported by factual statistics on
                           actual delays and how the delays adversely impact the
                           USPS’ ability to comply with prescribed timeframes.




                                              15
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment   LR-AR-99-010
 Opportunity Complaints



Major Contributors to
this Report




                                              16
                                    Restricted Information
San Antonio District - Delays in Processing of Equal Employment   LR-AR-99-010
 Opportunity Complaints




                                          17                         Appendix
                                Restricted Information
San Antonio District - Delays in Processing of Equal Employment   LR-AR-99-010
 Opportunity Complaints




                                          18                         Appendix
                                Restricted Information
San Antonio District - Delays in Processing of Equal Employment   LR-AR-99-010
 Opportunity Complaints




                                          19                         Appendix
                                Restricted Information
San Antonio District - Delays in Processing of Equal Employment   LR-AR-99-010
 Opportunity Complaints




                                          20                         Appendix
                                Restricted Information
San Antonio District - Delays in Processing of Equal Employment   LR-AR-99-010
 Opportunity Complaints




                                          21                         Appendix
                                Restricted Information
San Antonio District - Delays in Processing of Equal Employment   LR-AR-99-010
 Opportunity Complaints




                                          22                         Appendix
                                Restricted Information
San Antonio District - Delays in Processing of Equal Employment   LR-AR-99-010
 Opportunity Complaints




                                          23                         Appendix
                                Restricted Information
